Supreme Court, U.S.
FILED

FEB 1 7 2021
No.

OFFICE OF THE CLERK

IN THE

SUPREME COURT OF THE UNITED STATES

TOI HORN,
ESTATE OF EMMA M. HORN,
E&E FAMILY TRUST,
Petitioner(s)/infant,minor,
v.

FEDERAL NATIONAL MORTGAGE ASSOCIATION "FANNIE MAE" et al.,
Respondents.

On Petition for a Writ of Certiorari to The United States Court
of Appeals for the Fourth Circuit

PETITION FOR A WRIT OF CERTIORARI

February 16,2021

Toi J'vhann Horn, POA,
equitable beneficial title holder,
of Moorish descent, Grantor
of the trust TOI HORN,
HORN, TOI, aka
TOI J'VHANN HORN,
Personal Rep. for the Estate,
Trustee,
c/o 10312 Garson Terrace
Lanham, Maryland [20706]
(240) 602-2140
toihorn2@gmail.com

(RECEfVEo
2 3 2021
s^Mmsouslu’g

(i)
QUESTIONS PRESENTED
Petitioner request to ask this Court to review whether the infant/minor’s denial of
their constitutional appeal be final from the District Court District of Maryland,
Greenbelt division and the Court of Appeals for the Fourth Circuit and thus this
denial be given the authority to impound the property and funds for the creation of
a trust, and attempt to deprive the infant/minor the right to the absolute enjoyment
of the funds/property of one who has come forth now, and is appearing at the age
of majority:
1. Whether the district court erred in denying Petitioner's request to review
Respondents bookkeeping entries (both receivables and payables) and the
full accounting on the accounts receivables and accounts payables resulting
from the deposit of TRUST/Estate of the ward/Beneficiary onto the courts
accounts receivables and other general intangibles, a Constitutional
violation?
2. Whether the circuit court and district court erred in denying
Petitioner/infant, minor in exercising the 5th Amendment right to due
process under the United States Constitution, which states - "no one shall be
deprived of life, liberty, or property without due process of law”?

3. Whether the circuit court for Prince George’s County erred in granting
Respondents the authority to file a false fictitious estate in the court record,
and accept Respondents false claim as real which gave Respondents the
power to sell the trust and the trust property by using a false Bond that
stated the trust/estate had a mortgage agreement with them; is this error a
violation of the 5th Amendment takings clause under the United States
Constitution that states "private property shall not be taken for public use,
without just compensation"?
4. Whether the circuit court, district court, the Court of Appeals Fourth Circuit
erred in denying Petitioner their entitlement to relief of damages in equity?

(ii)
5. Whether the district court and Court of Appeals for the Fourth Circuit be
given the authority to act in violation of administrative constitutional or
statutory limitations on its powers?
6. Whether the circuit court for Prince George’s County, district court, and
court of appeals erred in denying Petitioner to subpoena records from
Respondents, (to compel testimony by a witness or production of evidence?)

7. Whether Respondents missed the deadline to file their claim under
Maryland Code Estates and Trusts Title 8-Claims of Creditors Subtitle 1 General Section 8-103, by failing to file their claims against the decedent
with the Register of Wills for Prince George's County, Maryland within six
(6) months from the date of the decedent's death in a timely manner?
8. WTiether the circuit court erred in denying completing a full investigation of
the false estate at issue before ratifying Respondents sale of the trust
property/home; Respondent’s actions made the lower courts believe that
Respondents had a Deed of Trust and Note with the false estate that should
have been examined before the unlawful sale?

9. Whether the appointed trustee took an oath to uphold the United States
Constitution before the Bankruptcy court appointed the contracted trustee
over Petitioner’s Bankruptcy chapter 7 case?

(iii)
PARTIES TO THE PROCEEDING IN THIS
COURT AND RULE 12.6 STATEMENT

A list of all parties to the proceeding in the court whose judgement is the subject of
this petition is as follows:
FEDERAL NATIONAL MORTGAGE ASSOCIATION “FANNIE MAE”
c/o Elizabeth Marian Abood-Carroll
ORLANS PC
P.O.Box 5041
Troy, MI 48007
c/o ORLANS PC
PO Box 2548, Leesburg, Virginia 20177
Alleged Counsels for “Fannie Mae”
JAMES E. CLARKE,
HUGH J. GREEN,
SHANNON MENAPACE,
CHRISTINE M. DREXEL,
BRAIN THOMAS,
SETERUS, INC.,
c/o ORLANS PC
PO Box 2548
Leesburg, Virginia 20177

NATIONSTAR MORTGAGE, LLC, d/b/a MR. COOPER
c/o PO Box 619098
Dallas, Texas 75261-9741

(iv)
TICHI PROPERTY, LLC
c/o Larry H. Kirsch
402 Long Trail Terrace
Rockville, Maryland 20850
Counsel for alleged Foreclosure Purchaser
APPOINTED TRUSTEE
c/o Steven H Greenfeld, appointed Trustee
Cohen, Baldinger & Greenfeld, LLC
2600 Tower Oaks Blvd.
Suite 103
Rockville, MD 20852
Petitioners are TOI HORN aka TOI J’VHANN HORN
ESTATE OF EMMA M. HORN
E&E FAMILY TRUST
Debtors - Appellants
Respondents are indicated above.

(V)

TABLE OF CONTENTS
QUESTIONS PRESENTED

1

PARTIES TO THE PROCEEDING IN THIS
COURT AND RULE 12.6 STATEMENT

11

TABLE OF CONTENTS

v

INDEX OF APPENDICES

VI, vu

TABLE OF AUTHORITIES

vm

OPINIONS BELOW

1

JURISDICTION

1

Jurisdiction of Courts Over the Estates of Infants

1

CONSTITUTIONAL PROVISIONS INVOLVED

2

INTRODUCTION

3

STATEMENT OF THE CASE

5

REASONS TO GRANT THE PETITION

9

1. SOURCE AND IDENTITY AUTHENTICATION
2. ORDER OF DISCHARGE WAS GRANTED......
3. Affidavit’s Unrebutted Stands as True..................

9
16
17

CONCLUSION

20

(vi)
APPENDIX A
Appeal 20-1197
Judgment, Unpublished per curiam opinion, U.S. Court of
Appeals for the Fourth Circuit, October 22,2020..............

la

Order (Denial of Rehearing), U.S. Court of Appeals for the
Fourth Circuit December 1,2020 .....................................

4a

Mandate (Judgement of court entered October 22,2020,
takes effect today December 9,2020) U.S. Court of Appeals
For the Fourth Circuit........................................................

5a

Jurisdictional Notice - Awaiting Entry of Order Under
Frap 4(a), U.S. Court of Appeals for the Fourth Circuit,
August 10, 2020 ........................................................

6a

Three Letter Orders - U.S. District Court for the District of
Maryland, Greenbelt Division, entered August 28,2020,
October 13,2020, and November 6, 2020 .........................

7a

Memorandum Opinion and Order (Appeal Dismissed),
U.S. District Court for the District of Maryland, Greenbelt
Division, September 27,2019 .........................................

13a

Order of Discharge, U.S. Bankruptcy Court for the District
Of Maryland, Greenbelt Division, September 30, 2019 .....

17a

Order Terminating Automatic Stay, U.S. Bankruptcy
Court for the District of Maryland, Greenbelt Division,
December 20th, 2018.................................................

19a

(vii)

APPENDIX B
Circuit Court Civil Case No.: CAEF 18-01811

Order of Ratification of Sale and Referral to Auditor, Circuit
Court for Prince George’s County, Maryland, August 12th, 2020
Entered: 8/14/2020 .....................................................................

22a

Trustee’s Report of Sale, Circuit Court for Prince George’s
County, Maryland, March 28, 2018, Entered: April 11, 2018

24a

Trustees, Mortgagees, Attorneys’ Foreclosure Bond,
Filed by Janies E. Clarke, et al., February 1, 2018 ...

25a

Orphans’ Court For Prince George’s County, Maryland
Estate No. 100174
Before the Register of Wills For
The ESTATE OF EMMA M. HORN: Estate No. 100174

26a

Complaint/Reopen Estate of EMMA M. HORN, Orphans’
Court for Prince George’s County, Maryland, February 14, 2019....

27a

Certification of Publication for Small Estate Notice of
Appointment Notice to Creditors Notice to Unknown
Heirs Estate No. 100174 (To All Persons Interested in
The Estate of Emma M. Horn,) July 16, 2015............

28a

(viii)
TABLE OF AUTHORITIES
Cases
Estate No. 100174: IN THE ESTATE OF EMMA M. HORN filed at
the Register of Wills for Prince George’s County, Maryland (status):
closed and fully adjudicated by the court...........................................

1,2,5

United States v. Kis, 658 F. 2d 526, 536 (7th Cir. 1981); Cert.
Denied, 50 U.S. L.W. 2169; S. Ct. March 22,1982 1982].....

5,17

Group v. Finletter, 108 F. Supp. 327 federal case of
Group v. Finletter, 108 F. Supp. 327].....................

17

In re Breidt, 84 N.J. Eq. 222, 94 A. 214,216,

17

Morris v. National Cash Register, 44 S. W. 2d 433

17

Seitzer v. Seitzer, 80 Cal. Rptr. 688

17

Melorich Builders v. The SUPERIOR COURT ofSan Bernardino
County, (Serbia) 207 Cal. Rptr. 47 (Cal. App 4 Dist. 1984).........

17

Owens v. City ofIndependence,_100 S. Ct. 1398 (1980)

20,21

McCulloch v. Maryland, Supremacy Clause Article VI, Paragraph
2 of the U.S. Constitution confirms that the federal Constitution and
federal laws overrule all state laws and even the states constitution .

3,4,5,6

Meredith v. Ramsdell, 152 Colo. 548, 552,384, P. 2d 941,944 (1963) .... 6,7,8,9
Denver Business Sales Co. v. Lewis, 148 Colo. 293,
365, P. 2d 895(1961).............................................

19, 20

Cheek v. McGowan Elec. Supply Co., 404 So. 2d 834, 836
(Fla. 1st DCA 1981.).........................................................

19

(ix)

Statutes and Codes
Maryland Estates and Trust Code Section 8- 103 (2017) Claims of Creditors Subtitle 1 General section 8-103.
Limitation on presentation of claim... (a) (1) (2)...............

6

Annotated Code of Maryland, real property Article,
Section 10-702, prov...........................................

6

United States Constitution
First Amendment................................................
Fifth Amendment...............................................
Supremacy Clause, Article VI, Clause 2...............
Bill of Rights.....................................................
Bill of Rights, Amendment I...............................
Bill of Rights, Amendment VII...........................
Article 1, Section 8, Clause 4..............................
Full Faith and Credit Clause - Article IV, Section 1

3,4

passim
passim
passim
3,4

passim
passim
passim

Legal Maxims
Caveat emptor.................................................................................
Caveat emptor qui ignorare non debuit quod jus alienum emit..........
Cessante statu primitivo, cessat derivativus.......................................
Chirographum non extans praesumitur solutum................................
Equitas sequitur legem....................................................................
Error juris nocet..............................................................................
Ex facto jus oritur............................................................................

3,4,7,8

Factum infectum fieri nequit “what is done cannot be undone”.........................
Ex turpi contractu non oritur actio “no action arises from of a wrongful contract”

7

Fides est obligatio conscientiae alicujus ad intentionum alterius........

8, 12
5,6
13,16,17
1,2
3, 4,5
1,10,11
8,9
10

1
OPINIONS BELOW
The opinions, judgement, and orders of the Fourth Circuit Court of Appeals, the
District Court District of Maryland, Greenbelt Division, and the Bankruptcy Court
for the District of Maryland, Greenbelt Division are under Appendix A. The
opinions of the U.S. Court of Appeals for the Fourth Circuit are unpublished and
unreported Appendix A 2a, 3 a. The order of ratification of sale of the Circuit Court
for Prince George’s County, Maryland is under Appendix B 22a. The court failed
to notify Petitioners of the ratification. Petitioner just became aware on February 8,
2021, when Petitioner looked in the case file.
JURISDICTION
The Fourth Circuit Court of Appeals issued its judgement in Appeal No. 20-1197
on October 22,2020, Appendix Ala. Petitioner’s timely petition for panel and a
rehearing was denied on December 1,2020, Appendix A 4a. The Mandate from
the Appeals Court stated that the judgement entered on October 22,2020 took
effect on December 9,2020 see Appendix A 5a. The jurisdiction of this Court is
properly invoked pursuant to 28 U.S.C. § 1257(a) and 28 U.S.C. § 1254(1). If a
petition for rehearing is timely filed in the court of appeals, the time to file the
petition for writ of certiorari for all parties runs from the date of the denial of the
petition for rehearing see Rule 13 of the Rules of Supreme Court of the United
States. The Small Estate Notice of Appointment Notice to Creditors by the
Register of Wills for Prince George’s County, Maryland is under Appendix B 28a.
The Small Estate Notice of Appointment Notice to Creditors was published in the
Enquirer-Gazette under description 71665A-HORN on 7/16/2015.
Jurisdiction of Courts Over the Estates of Infants
Jurisdiction over the estate of an infant is inherent in equity. Courts of equity have
General and inherent jurisdiction over the property of infants. The jurisdiction can
be exercised only when the court has acquired jurisdiction as to the particular
infant/minor or subject matter (jurisdiction over estates/trusts are exclusive in
nature over which courts of equity have exclusive jurisdiction, and such matters
must be heard at equity.) The commencement of proceeding affecting the infant’s
property vest the court with jurisdiction over his or her estate, pursuant to when
the court acts in loco parentis or as a guardian, and the infant becomes its ward. It

2

is the duty of the court to safeguard the infant’s property interests with great care,
example in trust. After the jurisdiction of the court has attached, either through as
appearance which equates to submitting to the court’s jurisdiction, the court in its
administrative capacity has broad, comprehensive and plenary powers over the
estate of the infant/minor; however, courts of equity have exclusive jurisdiction
over the property of the infant/minor. This court may adjudicate the rights and
equities of the infant and property, yet only in equity, and it may cause to be done
whatever may be necessary to preserve and protect the infant’s estate which
includes the property/assets of an infant. Therefore, the court cannot act in
violation or permitting the impounding of the infant’s funds for the creation of a
trust, which the court or parties have done by establishing the instant matter, and
thus attempt to deprive the infant/minor of the right to the absolute enjoyment of
the funds of one who has come forth now and is appearing at the age of majority in
correction of any presumptions by previous actions or appearances in this manner.
Furthermore, courts in conducting Commercial Business of the court must
give/disclose to or upon a party upon demand the bookkeeping entries (both
receivables and payables) with an affidavit. The infant/minor having attained the
age of majority hereby challenges this instant matter. Equitas sequitur legem.
Equity follows the law.
CONSTITUTIONAL PROVISIONS INVOLVED
United States Constitution, First Amendment:
to petition the Government for a redress of grievances.

United States Constitution, Amendment V:
No person shall be deprived of life, liberty, or property, without due process of law; nor shall private property be
taken for public use, without just compensation.

United States Constitution, Supremacy Clause, Article VI, Clause 2:
This Constitution, and the Laws of the United States which shall be made in Pursuance thereof; and all Treaties
made, or which shall be made, under the Authority of the United States, shall be the supreme Law of the Land; and
the Judges in every State shall be bound thereby, any Thing in the Constitution or Laws of any State to the Contrary
notwithstanding.

United States Constitution, Article 1, Section 8, Clause 4:
In the United States, bankruptcy is governed by federal law. The U.S. Constitution (Article 1, Section 8, Clause 4)
authorizes Congress to enact "uniform Laws on the subject of Bankruptcies throughout the United States."

United States Constitution, Full Faith and Credit Clause - Article IV, Section 1
This clause requires that all decisions, public records, and rulings from one state be honored in all the other U.S.
States. Each U.S. court must give "full faith" and "credit" to the decisions rendered by other courts.

United States Constitution, Bill of Rights
No person's (to include infants/minors) property shall be taken, damaged or destroyed for or applied to public use
without adequate compensation being made, unless by the consent of such person, and when taken, except for the
use of the State, such compensation shall be first made, or secured by deposit of money.

3
"WE THE PEOPLE," must support, protect, and defend the United States
Constitution and not violate nor deny any right under the U.S. Constitution that
"WE THE PEOPLE" can exercise. It is the United States of America's obligation
to uphold the rule of law because it is the foundation of our republic. Petitioner has
been aggrieved in this instant matter and request this court redress Cause No. 20 1197 at the United States Court of Appeals for The Fourth Circuit and Cause No.
CAEF18-01811 at the Circuit Court for Prince George’s County, Maryland.
Petitioner challenges all Constitutional Provisions that were denied and violated
under this cause.
INTRODUCTION
Petitioners’ cause has been egregiously ignored and overlooked by the inferior
courts. Petitioners have been aggrieved by the inferior court’s decision to ignore
the false estate at issue; after Petitioners informed the court that the estate at issue
is false and fraudulent. This all began after Petitioner’s mother passed away who
has a Deed of Trust and a Note. The nightmare began when Respondents created a
new false estate by using Petitioner’s mother’s identity after Petitioner’s mother
passed away. Respondents new false estate was allegedly given legal title over the
trust and the trust property at issue because Respondents claimed that the false
estate had a Deed of Trust and Note with them. Respondents led the inferior courts
to believe that they were the Substitute Trustees of a false estate; however,
Petitioners have continuously entered in the court records actual evidence proving
that Respondents claims are all false. Respondents actions against Petitioners are
so egregious, it forced Petitioners to seek relief in equity. Petitioners will not
surrender, quit, nor abandon the trust and its property; until the United States
Supreme Court overturns the decision of the appeals court and the lower courts.
Respondent’s actions caused Petitioner to file Bankruptcy to seek relief from
Respondents false claim. Respondents proceeded with their foreclosure sale
regarding the trust property located at 10312 Garson Terrace, Lanham, Maryland
20706 on March 28, 2018 by using a false estate that they claimed owned the trust
property. On May 1,2018, Petitioner filed Bankruptcy and was Granted an
automatic stay; however, on December 20, 2018 the Bankruptcy Court terminated
the Automatic Stay imposed by 11 U.S.C. § 362 to allow Respondents to enforce a
false lien of its alleged Deed of Trust as it pertains to the real trust property at
issue. Petitioners’ disagrees with this order terminating the Automatic Stay;
so therefore, Petitioners’ appealed the Bankruptcy Court’s decision in the

4
termination of the automatic stay and was granted relief; however, the district court
issued an Order Dismissing Petitioner’s appeal for the following reason’s, the court
explained that Petitioner failed to designate a record on appeal and did not provide
an intelligible basis for relief and the court found that the decision to terminate the
stay in accordance with 11 U.S.C. § 362 (d)(1) was not an abuse of discretion and
was supported by existing caselaw. Id. At 3-4 (citing In re DeSouza, 135 B.R. 793
(Bankr. D. Md. 1991)). Petitioners disagree with this final decision to dismiss
Petitioners’ cause. The court only filed opinions and letter orders; this cause is so
serious and egregious one cannot just rely on opinions and letters to be the final
say. This matter must be thoroughly reviewed again because of several errors that
were made by the lower court’s decisions and because Respondents led the courts
to believe that a false estate defaulted on an alleged Note and Deed of Trust with
Respondents. The Supreme Court cannot certify a false fake fictious estate at issue
under this cause; so therefore, we all must due a full investigation on this
profoundly serious matter of taking trust property and make sure that we all dot our
I’s and cross our T’s to make certain that this is true, correct, and complete to the
best of our knowledge. The court claimed that Petitioner failed to designate a
record on appeal; we object to this statement. Case No. 8:19-cv-00046 was not a
real appeal’s case. This case was a civil case; so therefore, Petitioner treated it as
such. It states that it is a civil case under the case title and number. Petitioner filed
a Counterclaim against Respondents by filing a Bill of Complaint in Equity
Presentment to Void Proceedings and Jurisdiction. The presiding U.S. District
judge, over this cause, failed to adjudicate the bill, 5th Amendment due process
violation of the U.S. Constitution. Petitioner did in fact change jurisdiction under
this cause and the judge failed to acknowledge the bill correctly. It appears the
judge did not know how to move forward with the changing ofjurisdictions.
Petitioner changed the civil case to an equity proceeding. Petitioner desired the
case to proceed in equity because she did not agree with the jurisdiction that the
court wanted to proceed in; therefore, we could not come to a meeting of the minds
and Petitioner was left without a resolution. Petitioner moved forward in filing an
appeal and was granted relief. The Appeals court then entered in the court record a
Jurisdictional Notice - Awaiting Entry of Order Under Frap 4(a) which stated
“Review of the district court docket discloses that the district court is considering
relief under Rule 4(a)(4) or (5), thereby suspending proceedings on appeal in this
case. Accordingly, this appeal will not proceed until the district court has issued its
ruling.” As one can see, the lower courts are confused in how to resolve this

5
matter; therefore, Certiorari before judgement is needed. Petitioner was sent back
down to the lower court and the lower court did nothing but confuse the instant
matter even more. The lower courts actions have Petitioners running back and forth
from this court to that court. It is very confusing to those who are watching. The
Court of Appeals gave their final decision/judgement decided: October 22, 2020
that they found no reversible error in the district court’s letter orders. Appeals
Court’s opinions were unpublished, meaning, not binding. Affirmed by
unpublished per curiam opinion. Petitioners object to the unpublished opinions and
request relief from Respondent’s egregious actions. Petitioners do not agree with
the letter orders from the lower courts.
STATEMENT OF THE CASE
Grantor of the trust, Toi J. Horn, states for the record: that Emma M. Horn died in
May 2015; thereafter, an Estate was opened for Emma M. Horn in May 2015 under
Estate No. 100174 with the Register of Wills for Prince George's County,
Maryland, see Exhibit 1 Affidavit. The Register of Wills for Prince George's
County, Maryland appointed Toi Horn as Personal Representative for the ESTATE
OF EMMA M. HORN on JUNE 22, 2015, see Appendix B 28a,
CERTIFICATION OF PUBLICATION published on 7/16/2016 for (3) three
consecutive weeks in The Enquirer-Gazette.
Before Emma M. Horn died, she had an alleged loan account with Bank of
America. Immediately after she died the Executrix gave a copy of Emma M.
Horn's Death Certificate to Bank of America and two months after Bank of
America received the Death Certificate, the Executrix received a letter from Bank
of America stating that Emma M. Horn's alleged loan account with Bank of
America was PAID IN FULL and or transferred, this is a fact. Horn did receive a
Letter Notice from Bank of America stating that the account was PAID IN FULL.
Bank of America and Respondents were notified that a small estate was opened for
Emma M. Horn under Estate No. 100174 located with the REGISTER OF WILLS
FOR PRINCE GEORGE'S COUNTY at P.O. Box 1729, Upper Marlboro,
Maryland 20773-1729. The rule of law in Prince George's County, Maryland states
TO ALL PERSONS INTERESTED IN THE ESTATE OF EMMA M. HORN - All
persons having claims against the decedent must serve their claims on the

6
undersigned personal representative or file them with the Register of Wills with a
copy to the undersigned on or before the earlier of the following dates:
(1) Six months from the date of the decedent's death; or (2) Thirty days after the
personal representative mails or otherwise delivers to the creditor a copy of this
published notice or other written notice, notifying the creditor that the claims will
be barred unless the creditor presents the claim within thirty days from the mailing
or other delivery of the notice. Any claim not served or filed within that time, or
any extension provided by law, is unenforceable thereafter see Exhibit 1 AFFIDAVIT. Respondents ignored the Universal Citation: Maryland Estate &
Trusts Code section 8-103 (2017), see 2017 Maryland Code Estates and Trusts
Title 8 - Claims of Creditors Subtitle 1 - General section 8-103, Limitation on
presentation of claim, and CERTIFICATION OF PUBLICATION for the
ESTATE OF EMMA M. HORN - see Exhibit 1. Respondents also ignored that a
small estate was opened for all creditors to file their claims against the ESTATE
OF EMMA M. HORN under Estate No. 100174. Respondents ignored the rule of
law/publication which violated Petitioner's right to exercise the Fifth Amendment
due process clause under the United States Constitution. Respondents were to file
their claims if they had a real claim against the ESTATE OF EMMA M. HORN
within Six (6) months from the date of the decedent's death with the Register of
Wills for Prince George's County, Maryland; however, Respondents failed to file a
claim within Six months from the date of the decedent's death which was in May
2015 see Exhibit 1 AFFIDAVIT. Respondents proceeded to harass and threaten
Petitioner after the deadline of the decedent's death by using the United States
Postal Service to continue to make payments to an alleged loan account that was
created after Emma M. Horn passed away. Respondents then created another estate
by using the name Emma H. Horn to force Petitioner against her will to keep
making payments to an alleged loan account that was already PAID IN FULL after
Emma M. Horn died to become unjustly enriched. Respondents did create a false
fictitious name title, Emma H. Horn and the Estate of Emma H. Horn and Toi Horn
as Personal Representative for the Estate of Emma H. Horn after Emma M. Horn
died in May 2015. Respondents sent multiple false correspondents and bill
statements to Petitioner by using the fictitious name titled Emma H. Horn and the
Estate of Emma H. Horn claiming that this person was the borrower of a loan with
them. Toi Horn informed Respondents that she did not know who Emma H. Horn
was and informed them that Toi Horn is not the Personal Representative for the

7
Estate of Emma H. Horn; however, Respondents ignored Toi Horn and continued
to pursue Petitioner by sending mail to Emma H. Horn stating that Petitioner must
make a payment for Emma H. Horn's loan account with them. Respondents bullied,
harassed, and threatened Petitioner via United States Postal Service to make
payments for Emma H. Horn.
Emma H. Horn is not related to Toi Horn. Emma H. Horn never owned nor
lived at the trust property located at 10312 Garson Terrace, Lanham, Maryland,
[20706;] however, Respondents claimed otherwise. Respondents pushed their
agenda by filing a fraudulent foreclosure, "false claim," on January 31,2018, three
(3) years after Emma M. Horn's Estate was closed with the Register of Wills for
P.G. County, Maryland in May 2015, therefore, Respondents were to file proof of
claim under the Estate of Emma M. Horn's No. 100174 within Six months from the
date of the decedent's death see Exhibit 1. Respondents filed a false claim in
another jurisdiction 3 years later allegedly claiming that a false fake name titled the
Estate of Emma H. Horn owes them an alleged mortgage. Again, Emma H. Horn’s
name is not under the Deed of Trust nor the original Note and Respondents failed
to prove to the inferior courts that Emma H. Horn was the borrower named under
the original Note and the Deed of Trust; again, there is no evidence that Emma H.
Horn was the borrower. Can a court of record CERTIFY the ESTATE OF EMMA
H. HORN owned the trust property; NO, because the answer lies.

Respondents continued their fraudulent agenda and filed a false Bond under
Case No. CAEF18 - 01811 located at the Circuit Court for Prince George's
County, Maryland, please see Appendix B 25a - Atlantic Bonding Company, Inc.
dated 02/01/18. Respondents certified under their false Bond stating that the Estate
of Emma H. Horn is the Defendant that has a "mortgage agreement with them, by
virtue of the power contained in a Deed of Trust or Mortgage or by virtue of a
decree of the Honorable Judge of the said Court is/are about to sell -10312 Garson
Terrace, Lanham, Maryland 20706 in accordance with said deed, mortgage or
decree." Respondents lied right here and made several false statements under the
Bond see Appendix B 25a. Respondents did fraudulently securitize and monetize
this Bond by using a false name title, the Estate of Emma H. Horn.

8
Respondents lied to the court by stating under the Bond that the Estate of Emma H.
Horn owned the trust property namely 10312 Garson Terrace, Lanham, Maryland
20706. There is no evidence that Emma H. Horn's name/ title was ever listed under
the Deed of Trust and or Mortgage with Respondents. Respondents claims are
ALL FALSE. The Supreme Court cannot certify Respondents claim due to the
false Bond entered in the court record.
Respondents also conspired with their Attorneys, Orlans PC, and allowed James
E. Clarke, et. al, to claim they were the Substitute Trustees and the Principal(s) of
the false Bond see Appendix B 25 a. Respondents sealed and certified the Bond
attached, see Appendix B 25a. Respondents made the inferior court believe that
this Bond was true, correct, and complete; therefore the inferior court allowed
Respondents to sell the trust property and foreclose on 10312 Garson Terrace,
Lanham, Maryland 20706 - all under Case No. CAEF18-01811 now pending in the
Circuit Court for Prince George's County. This is a fraudulent sell. Respondents
had no authority to sell the trust property namely 10312 Garson Terrace, Lanham,
Maryland 20706 because the Bond that was filed under the case was false.
Respondent's Bond must be investigated. Certiorari before judgement would be
particularly appropriate here because of this egregious act.
The inferior court adjudicated an entire case against a false fictitious name titled
the Estate of Emma H. Horn because Respondents claimed that the Estate of
Emma H. Horn was the borrower named under an alleged Note and Deed of Trust
with "them." Petitioner informed the court about this false claim. Petitioner was
ignored and the court allowed Respondents to continue their fraud by allowing
them to sell the trust/property in March 2018 a month after 'they" filed the false
Bond. Although, I might be in error, the inferior court failed to notify Petitioner,
that the sale of the trust, trust property was Ratified. Petitioner never received the
order of the Ratification in a timely manner. The inferior court denied Petitioner to
exercise their 5th Amendment right to due process under the U.S. Constitution;
therefore, Petitioner had no rights and was denied enjoying the right to due
process. The court did shut and close Petitioner out of account Case No. CAEF 1801811 to allow Respondents to sell the trust property therefore currently there is a
FRAUDULENT LIEN against the trust/property namely,
" 10312 Garson Terrace, Lanham, Maryland [20706]"

9
Respondents made false statements under the Bond by stating that "E&E FAMILY
TRUST was by virtue of the power contained in a Deed of Trust or Mortgage;"
E&E FAMILY TRUST does not have a mortgage agreement with Respondents nor
a contract agreement with Respondents. E&E FAMILY TRUST does not have a
Deed of Trust agreement with Respondent. Respondents failed to file in the court
record proof of breach of contract with the E&E FAMILY TRUST. Respondents
false statements under the Bond made the courts believe that "they" had somehow
acquired a note and Deed of Trust of the ESTATE OF EMMA H. HORN and E&E
FAMILY TRUST to sell the property at issue. Petitioner’s request that the
Fraudulent Lien be removed immediately from the home, the trust/property, and
E&E FAMILY TRUST. The inferior court failed to investigate this matter. The
court allowed Respondents to conceal information from Petitioners all in violation
of the 5th Amendment right to due process of the Unites States Constitution.
E&E FAMILY TRUST currently owns the real property at issue. Before Emma M.
Horn passed away, she successfully transferred title of the property to E&E
FAMILY TRUST on February 25, 2015.
Respondents by way of fraudulent means and false representation, entered in the
court record false documents and false statements by claiming the Estate of Emma
H. Horn was the borrower of a loan with "them," that owned the trust property, and
also claimed that Toi Horn is the Personal Representative of the Estate of Emma H.
Horn; these claims are all false and lies, Meredith v. Ramsdell. Certiorari before
judgement would be appropriate here because of the overwhelming egregious acts.

REASONS TO GRANT THE PETITION
1. SOURCE AND IDENTITY AUTHENTICATION
We must all confirm and verify the identity of EMMA H. HORN as it relates to
a false civil case that Respondents filed at the inferior court. Respondents alleged
claim must be verified by a higher court. The lower courts and the appeals court
failed to make certain, if EMMA H. HORN had a Deed of Trust and a note with
Respondents, 5th Amendment violation. The court failed to verify if this was true,
so therefore, we request to revisit this instant matter to make certain. Certiorari
before judgement must be granted.

10
The United States Supreme Court must make certain that Respondents actions
were done in truth and make certain if Emma H. Horn or Emma M. Horn had a
mortgage agreement with Respondents because the fact of the matter is,
Respondents have a lien against the ESTATE OF EMMA H. HORN and a false
lien against E&E FAMILY TRUST. The U.S. Supreme Court must confirm what
is true and what is not true and do a thorough investigation of this profoundly
serious matter. The true owner of the trust property stated herein was Emma M.
Horn. Emma M. Horn was the Grantor and the equitable beneficial title holder of a
Deed of Trust and an original Note that had been fully PAID IN FULL several
years ago and has been discharged, please reference Case No. 20- 1197 Brief Affidavit of Appellant ECF No. 14 located at the United States Court of Appeals
for The Fourth Circuit; however, again, Emma M. Horn passed away in May 2015,
and before Emma M. Horn passed away, she successfully transferred ownership
and title of the home located at 10312 Garson Terrace, Lanham, Maryland 20706
into a trust named E&E FAMILY TRUST. Respondents are not the trustees of
E&E FAMILY TRUST. Respondents failed on numerous occasions to produce
actual evidence to the court of record that "they" have proof of interest in E&E
FAMILY TRUST. Respondents failed to produce evidence to the court of record
that "they" have proof of interest in the ESTATE OF EMMA M. HORN.
Respondents failed to show the court of record that "they" were entitled to sell
E&E FAMILY TRUST and trust property. The Deed was transferred to E&E
FAMILY TRUST in February 2015, please refer to ECF No. 14 - Brief - Affidavit
of Appellant under No. 20- 1197.
Petitioner is the heir of EMMA M. HORN'S trust/estate and Petitioner comes
to claim the equity from all securities that are the ESTATE OF EMMA M.
HORN(s). The courts cannot violate the Fifth Amendment of the U.S. Constitution
and deny Petitioner to exercise the right to due process. Petitioner, E&E FAMILY
TRUST, and the ESTATE OF EMMA M. HORN does not owe Respondents a
home to sell, money, cash, funds, payment of any kind. Petitioner challenges the
bookkeeping and all securities held in trust. Respondents continue to file false
claims stating that Petitioners) owe them the home because we did not pay an
alleged full total amount; however, these claims are all false, Emma M. Horn's
alleged loan account with Bank of America was fully discharged and PAID IN
FULL immediately after Emma M. Horn's death, see Exhibit 1 - AFFIDAVIT.

11
Respondents refuse to answer questions about the securities that were created for
the benefit of EMMA M. HORN. Respondents currently owes the ESTATE OF
EMMA M. HORN, E&E FAMILY TRUST, and TOI HORN the securities that are
held in trust. There were several securities that were created from the original
Note under the title EMMA M. HORN. Respondents did conceal the equity from
the Personal Rep. for the Estate to keep ALL proceeds, funds, profits, and benefits
for themselves to become UNJUSTLY ENRICHED. Here again, Certiorari before
judgement would be appropriate.

By and through creating and using Emma H. Horn's name/title; Respondents,
fraudulently transferred the original owner's name/title who was in fact Emma M.
Horn through fraudulent means and false representation to the name/title Emma H.
Horn; after Emma M. Horn died in 2015. Respondents appointed Emma H. Horn,
without a court order, as the new borrower of an alleged Mortgage Loan with
"them". Respondents also fraudulently appointed Emma H. Horn as the new
Grantor of E&E FAMILY TRUST without a court order. *** Petitioner demands
that the false lien be removed immediately from the trust and its property,

Meredith v. RamsdelL 152 Colo. 548, 552, 384 P. 2d 941, 944 (1963)
("[a] person who misleads another by word or act believe a fact exists, when he
knows it does not, is guilty of fraud," Denver Business Sales Co. v. Lewis, 148
Colo. 293,365, P.2d 895 (1961) (trial court reversed in a_deceit case based on
nondisclosure for instructing the jury that the defendant was liable if he failed to
disclose a fact which "by the exercise of reasonable prudence" ("[hje who makes a
representation as of his own knowledge, not knowing whether it is true or false,
and it is in fact untrue, is guilty of fraud as_much as if he knew it to be untrue");
Otis & Co. v. Grimes, 97 Colo. 219,221-22, 48 P. 2d 788, 789 (1935) (actual
knowledge of falsity not required and it is enough if the representation is made
"with reckless ignorance of its truth or falsity" or "made..... recklessly, careless
[of] whether it be true or_false," or is made with "no knowledge whether his
assertion is true or false"). Approval by the Colorado Supreme Court in Bristol Bay
Productions, LLC v. Lampack, 2013 CO 60. 26, 312 P.3d 1155,1160 ("Colorado's
Model Jury Instructions unpack the fifth element into its three discrete sub-parts,

12
requiring the plaintiff to prove separately actual reliance, the reasonableness of that
reliance, and that the plaintiffs reliance caused its damages.") This instruction is
also supported by Knight v. Cantrell ,154 Colo. 396, 390, P. 2d 948 (1964);
Morrison v. Goodspeed, 100 Colo. 470, 68 P.2d 458 (1937).
Respondents made the representation with the intent that the court and Petitioner
would rely on the representation of Emma H. Horn; Corder v. Law, 148 Colo. 310,
366 P. 2d 369 (1961) (creation of a false impression, by whatever means, is the the
gist of a false representation.) Respondents trespassed and stole from the ESTATE
OF EMMA M. HORN and E&E FAMILY TRUST to create securities for 'their’
benefit. **Respondents created a new trust to take control the original trust
property and land from EMMA M. HORN and her heirs.** Respondents claimed
in their bogus civil suit that "they" had the legal right to sale the trust property
under the name ESTATE OF EMMA H. HORN, Meredith v. Ramsdell and
Corder v. Law, 148 Colo.

Petitioners were never notified by the court that the report of sale was Ratified.
Petitioners just became aware of the ratification on February 8,2021, when
Petitioner checked the case file. The alleged TRUSTEES* REPORT OF SALE must
be dismissed, terminated, void, and stopped with prejudice immediately because it
was done by fraudulent means. Respondents trespassed on trust property
commonly known as 10312 Garson Terrace, Lanham, Maryland [20706]:
BEING KNOWN AND DESIGNATED as Lot 14, Block G, in a subdivision known as Glenn Estates,
as per plat thereofrecorded among the Land Records ofPrince George's County, Maryland in Plat
Book NLP 154, Plat No. 82 and also recorded among Land Records in Liber No. 8755, folio 238 was
granted and conveyed,

One could continue to argue about this matter before the court; however,
Respondents false Bond is actual evidence that the truth lies.

13
Petitioner was forced against "their" will, due to Respondents actions at the
Circuit Court for Prince George's County, Maryland, to file a petition for
Bankruptcy relief under Chapter 13 of the United States Bankruptcy Code.
Petitioner filed the petition at the U.S. Bankruptcy Court for the District of
Maryland, Greenbelt Division, and was given relief under Cause No. 18-15871, on
May 1, 2018. Respondents actions caused Petitioner to file a VOLUNTARY
PETITION FOR INDIVIDUALS FILING FOR BANKRUPTCY. The court then
denied the petition and informed Petitioner to convert the Chapter 13 to another
chapter. Petitioner then converted Bankruptcy Cause No. 18-15871 under a
Chapter 13 to a Chapter 7. The appointed trustee named Steven H. Greenfeld filed
a no - asset report for Petitioner which stated as follows:
“Chapter 7 Trustee’s Report of No Distribution: I, Steven H. Greenfeld, having
been appointed trustee the estate of the above - named debtors), report that I have
neither received any property nor paid any money on account of this estate; that I
have made a diligent inquiry into the financial affairs of the debtors) and the
location of the property belonging to the estate; and that there in no property
available for distribution from the estate over and above that exempted by law.
Pursuant to Fed r. Bank P 5009,1 hereby certify that the estate of the above-named
debtor(s) has been fully administered. I request that I be discharged from any
further duties as trustee Key information about this case as reported in schedules
filed by the debtors) or otherwise found in the case record. This case was pending
for 2 months. Assets Abandoned (without deducting any secured claims):
$514372.00, Assets Exempt: Not Available, Claims Scheduled: $473298.06,
Claims Asserted: Not Applicable, Claims scheduled to be discharged without
payment (without deducting the value of collateral or debts excepted from
discharge): $473298.06. Filed by Steven H. Greenfeld. (Greenfeld, Steven)
(Entered: 10/16/2018)

Petitioner disputes the no - asset report. Petitioner did deposit in the court record
under Bankruptcy Cause No. 18-15871 a Full Faith and Credit Certificate of Live
Birth of TOI J'VHANN HORN see Doc ECF No. 155 and a Proof of Interest ECF

14
No. 160 that consisted of the Full Faith and Credit of Petitioner’s Birth Certificate
and Power of Attorney Bankruptcy Case No. 18-15871. The name of holder Toi
J’vhann Horn does in fact have an Equity Security Interest in the trust/estate TOI
J’VHANN HORN. The Full Faith and Credit Clause is protected under Article IV,
Section 1 of the United States Constitution: however, the appointed trustee failed
to acknowledge the filing to be added as an asset of Petitioner. The appointed
Trustee also failed to respond and rebut point for point the Brief - Affidavit of
Appellant ECF No. 14 under No. 20- 1197, Morris v. National Cash Register;
United States v. Kis, and Group v. Finletter. Petitioner disputes the trustees
statement. Respondents alleged loan account No. 234876 was fully discharged on
September 30,2019. The appointed Bankruptcy trustee should have informed
Petitioner about Respondent's dispute about the discharge because ORLANS PC,
counsel for Respondents, continue to pursue Petitioner claiming that Respondents
had a right to sell the trust property, which is not true and false. Petitioner also
entered in the court record ECF No. 155 SPECIAL DEPOSIT OF INSTRUMENT
INTO BANKRUPTCY AS ASSET TO BE CREDITED AND LIQUIDATED filed
03/15/19 Bankruptcy No. 18-15871 Chapter 7. The equitable beneficial title holder
made a special deposit of one enclosed instrument. Toi J. Horn, informed the court
that she is a living woman, as agent for the Debtor, TOI HORN [See Marbury v.
Madison, 1803]. The equitable beneficial title holder requested that the court set
off and/or off set all debt that is owed by the debtor and any remainder is to be
dispersed to the equitable beneficial title holder of the trust see ECF No. 155. The
Bankruptcy court and trustee ignored and failed to dispute the filings. Petitioner
request the Supreme Court review the entries into the court record whether the
Bankruptcy court erred in denying Petitioner the right to use the instrument that
was entered in the court record as an asset to be credited for this cause? Petitioner
had in possession an authenticated certified instrument that was entitled to the full
faith and credit. Some of the CUSIP numbers for these instruments have been
included on the property form under this cause.
A Notice of Motion for Relief from Stay dated: November 2,2018, by Orlans PC,
alleged counsel for Respondents, was filed against Petitioner's Bankruptcy filing.
The judge removed the automatic stay from the trust property, which is in dispute.
There are several securities that Respondents are currently concealing from the
court of record. U.S. Bankruptcy Judge, Lori S. Simpson, filed an ORDER

15
TERMINATING AUTOMATIC STAY regarding the trust property. Petitioner
took action to appeal the Order removing the stay and the appeal was forwarded to
the United States District Court District of Maryland, Greenbelt Division.
Petitioner was given relief and the appeal was granted. Petitioner was given Cause
No. 8:19-cv-00046 on appeal from Bankruptcy Cause No.: 18-15871 and
docketed on January 7,2019 at the United States District Court for The District of
Maryland and United States District Judge, Paul W. Grimm was given the
fiduciary title. The AUTOMATIC STAY was reinstated to the trust property.
While the stay was granted on appeal, Respondents transferred the alleged
servicing loan account No. 29367457 for the false name titled Emma H. Horn to
another servicing company named Nationstar Mortgage LLC d/b/a Mr. Cooper
effective March 1, 2019, please see ECF No. 15 - "NOTICE TO THE COURT OF
SERVICING TRANSFER" and ECF No. 36 - “NOTICE - UNLAWFUL
SERVICING TRANSFER" under Case No. 8:19-cv-00046 located at the U.S.
District Court For The District of Maryland Greenbelt Division, before the
ORDER OF DISCHARGE was granted for Petitioner. Respondents violated the
stay order and denied Petitioner the right to exercise the 5th Amendment of the
United States Constitution. Trust property cannot be moved or transferred while
the stay is active and enforced. Respondents securitized and monetized in secret on
the alleged loan without a court order and breached the trust. Respondents continue
to ignore and violate the U.S. Bankruptcy rules, laws, and codes that protect
trusts/estates. Respondents failed to inform the trustee about how much was
profited when "they" converted the alleged loan to a security. Respondents failed
to inform the heir of the Estate and the equitable beneficial title holders, see ECF
No. 14 under No. 20 - 1197 at the United States Court of Appeals for the Fourth
Circuit. The stay was enforced for the benefit of the trust, the trust property, the
estates, the accounts, the securities, and any known or unknown accounts.

Under the Bankruptcy code - while the stay is in effect, creditors cannot sue,
garnish wages, assert a deficiency, repossess property, or otherwise try to collect
from debtors. Creditors cannot demand repayment from debtors by mail, phone, or
otherwise. Creditors who violate the stay can be required to pay actual and punitive
damages and attorney fees.

16
Respondents transferred the alleged loan, without a court order, to try and
stop the alleged loan at issue from being DISCHARGED, all in violation of the
United States Constitution right to due process and the U.S. Bankruptcy Codes.
Respondents took the funds from the securities before the discharge.
"WE THE PEOPLE," have a right to discharge all debt under the U.S. Bankruptcy
Codes and the U.S. Constitution. I might be in error; however currently, it seems
the alleged loan was not discharged, it was transferred while the stay was enforced.
Respondents transferred the alleged debt for the false name Emma H. Horn to
Nationstar Mortgage LLC d/b/a Mr. Cooper effective March 1, 2019. There is no
mortgage connected to the trust property named E&E FAMILY TRUST. This
transfer should not have been granted, because Respondents were discharged.
Currently, the company named Nationstar Mortgage LLC d/b/a Mr. Cooper is
harassing the trust and the trust property claiming that EMMA HORN owes "them"
for an alleged loan. Petitioner request this court stop, dismiss, with prejudice
Nationstar Mortgage LLC d/b/a Mr. Cooper and Respondents from getting away
with this type of behavior. Nationstar Mortgage created another security for
another alleged loan and has concealed the securities from the trustee and the
equitable beneficial title holders. Petitioner was unable to file Nationstar Mortgage
LLC d/b/a Mr. Cooper as an alleged creditor under this cause, so therefore,
Nationstar Mortgage LLC d/b/a Mr. Cooper is currently harassing Petitioner to
make a payment for an alleged account that has been discharged. Certiorari before
judgement is appropriate because of the egregious behavior of Respondents. Is this
fair and why would a court allow this type of behavior and is this Constitutionally
acceptable? Certiorari before judgment must granted due to the egregious actions
of Respondents. It is almost as if, Respondents do not care for the rule of law nor
the U.S. Constitution.

2. ORDER OF DISCHARGE WAS GRANTED
On September 30,2019, U.S. Bankruptcy Judge Lori S. Simpson granted a
discharge under 11 U.S.C. section 727 for TOI HORN aka TOI J'VHANN HORN
heir of the ESTATE OF EMMA M. HORN. The Order of Discharge was entered
in the court record, please see ECF No. 168 - Case 18-15871 and a

17
"CERTIFICATE OF NOTICE for the ORDER OF DISCHARGE " see ECF No.
169 - Case 18 - 15871 located at the United States Bankruptcy Court For the
District of Maryland, Greenbelt, Division. The Certificate of Notice of the Order of
Discharge was sent by first class mail to all alleged listed creditors that were
entered into the Bankruptcy Case. Although, all alleged debt was in fact discharged
on September 30,2019 under Cause No. 18 - 15871; ORLANS PC, along with
Respondents continue to harass Petitioner by filing in court records, frivolous
filings and false claims, claiming that "they" already sold the trust property and
Petitioner cannot redeem the trust and the trust property; again, EMMA H.
HORN'S name is NOT under the Deed of Trust nor the original Note; however,
Respondents are claiming that EMMA H. HORN was the borrower. This is all
false, Meredith v. Ramsdell and Owens v. City of Independence.
Respondents failed to rebut all Affidavits that were filed in the court record and
the Bill of Complaint in Equity point for point, Petitioner is now Creditor and
Secured Party to this action and Petitioner's order to the court is for Respondents to
be dismissed with prejudice and the court must remove the fraudulent lien against
the trust and the trust property stated herein, United States v. Kis. Petitioner request
this honorable court refer to (ECF No. 14 under No. 20 - 1197) and Group v.
Finletter. Affidavits are written or printed declarations or statement of facts, made
voluntarily, and confirmed by oath or affirmation of the party making it, taken
before an officer having authority to administer such oaths Cox v. Sterna Hays v.
Loomis, 84 III. 18.
3. Affidavit's Unrebutted Stands as True
Affidavit uncontested unrebutted unanswered [United States v. Kis, 658 F. 2d 526,
536 (7th Cir. 1981); Cert. Denied, 50 U.S.L. W. 2169; S. Ct. March 22,1982
1982]"no more than affidavits is necessary to make the prima facie case."
[UnitedStates v. Kis, 658 F. 2d 526, 536 (7th Cir. 1981); Cert. Denied, 50 U.S. L.
W. 2169; S. Ct. March 22, 1982]
Please refer to ECF No. 20 and No. 21 under cause No. 20 - 1197 Respondents
failed to rebut point for point the document titled AN UN REBUTTED

18
AFFIDAVIT BECOMES THE LAW OF THIS CAUSE. Respondents failed to
rebut point for point the RESPONSE TO APPELLEE(s) INFORMAL BRIEF OF
APPELLEE - ECF No. 20 under Cause No. 20 - 1197.

Petitioner objects to and does not agree with the Letter Order dated August 28,
2020 (ECF 55,) the Letter Order dated October 13, 2020 (ECF 60,) and the
Memorandum Opinion and Order dated September 27, 2019 (ECF 37) all under
Cause No. 8:19-cv-00046; we therefore challenge the Letter Orders and the
Memorandum Opinion and Order and request a jury trial to resolve this matter,
because there was no final judgement given under this cause. The judge only
docketed in the record Letters and Opinions, so therefore, Petitioner challenges the
Letters and Opinions and further request a jury trial of Petitioners peers to further
adjudicate this instant matter. Petitioner is entitled to a jury because Petitioner is
the heir to the original note and the Deed of Trust that is in dispute under this
cause. Under the Fifth Amendment of the U.S. Constitution, "private property
[shall not] be taken for public use, without just compensation."

Respondents filed a false BOND against the ESTATE OF EMMA H. HORN
and E&E FAMILY TRUST, see Appendix B - 25a. This court must investigate
this Bond for its truthfulness. The inferior court adjudicated and entire case against
a fake fictitious name titled the ESTATE OF EMMA H. HORN and granted
Respondents to sell the trust property. The ESTATE OF EMMA H. HORN never
owned the trust property known as 10312 Garson Terrace, Lanham, Maryland
(20706), this estate is NOT a party to the Deed of Trust nor the original Note at
issue. The Supreme Court must review this false BOND of Respondents.
Respondents failed to show actual evidence to the court of record that they had a
mortgage agreement with the ESTATE OF EMMA H. HORN and E&E FAMILY
TRUST. Certiorari before judgement would be appropriate in light of the fact that
Respondent's Bond entered in the court record is in dispute and must be reviewed.
This is an emergency because the lower court’s decision was erroneous. The
Supreme Court cannot certify that the ESTATE OF EMMA H. HORN owned the
trust and its property just because Respondents say so; therefore, this court must
make certain that this is true; 5th Amendment due process, “private property [shall
not] be taken for public use, without just compensation.”

19
Padgett v. First Federal Savings & Loan Association of Santa Rosa County, 378
So. 2d 58, 64 (Fla. 1st DCA 1979,) Petitioner seeks a money judgement on the
original note. Petitioner has a constitutional right to demand a jury as to "legal"
actions, such as money damages claims for breach of promissory notes and breach
of trust; see Cheek v. McGowan Elec. Supply Co., 404 So. 2d 834, 836 (Fla. 1st
DCA 1981). Respondents did conceal several securities that were created from the
alleged loan account promissory note/Deed of Trust from Petitioner and E&E
FAMILY TRUST. Respondents denied Petitioners full disclosure of the securities.
Respondents remained silent when asked to produce evidence of the ESTATE OF
EMMA M. HORN'S securities. Petitioner demands full disclosure of all securities
for the estate. Respondents cannot conceal the securities held in trust. We demand
a jury trial to adjudicate these securities and we demand that Respondents release
the information to the Executrix and the Petitioners of this cause. This honorable
court cannot allow Respondents to lock Petitioner and the Executrix out of these
accounts because, Petitioner is the heir of the ESTATE OF EMMA M. HORN.

We have proven this fact to the court with lawful/legal documents. The "BILL OF
COMPLAINT IN EQUITY PRESENTMENT TO VOID PROCEEDINGS
AND JURISDICTION" see ECF No. 22 under Case No. 8:19-cv-00046 must be
investigated by a jury because the court failed to adjudicate this bill fairly. This bill
was in fact ignored by the court and ignored by Respondents. Respondents
continue to push their agenda by claiming that the trust property has been sold, all
done in violation of the 5th Amendment right to due process. Petitioner request to
challenge and investigate Respondents non- response of all securities that
Petitioner claimed.
PETITIONER WAS DENIED FULL DISCLOSURE, 5th amendment violation.
Respondents placed a claim that "they" have somehow acquired the note for this
particular property in trust and or is an agent of a party retaining the rights to
enforce an alleged note, a note that was fully discharged through the United States
Treasury Department some time ago, this would render this matter a matter in
dispute. This matter needs to be investigated by a jury and all other known alleged
loan accounts and unknown alleged loan accounts must be investigated by a jury.
Until this dispute is validated and until Respondents can verify everything stated
herein; this cause cannot move forward with taking trust property. Respondents

20
must provide verification of their false claims to the U.S. Supreme Court.
Petitioner was treated unfairly and denied the right to seek concealed documents
from Respondents. The inferior courts ignored all of Petitioner's Affidavits and
Complaints entered in the court record. Petitioner seeks redress of grievances.

CONCLUSION
For the foregoing reasons, Petitioner respectfully requests this Court issue a writ
of certiorari to review the judgement of the United States Court of Appeals for the
Fourth Circuit. Petitioner request to obtain a "Court Order" to remove and lift the
false lien on the trust/trust property known as: 10312 Garson Terrace, Lanham,
Maryland [20706] due to Respondents false filing against the false fictitious name
title the ESTATE OF EMMA H. HORN where Respondents claimed that Emma
H. Horn was the borrower of a loan with them, and by claiming she was named
under a Deed of Trust in which 'they' claimed 'they' owned. These statements are
all stated under the false Bond at issue under Civil Case No. CAEF18-01811. The
false Bond must be investigated because Respondents did securitize/monetize on
this Bond. Respondents also falsely claimed under the false Bond, that E&E
FAMILY TRUST had a mortgage agreement with them which allowed them to
foreclose and sell the trust property. Petitioner challenges this Bond. Respondents
failed to file their claims against Emma M. Horn after she died because
Respondents knew they had no claim against the ESTATE OF EMMA M. HORN.

Emma M. Horn's loan account was PAID IN FULL in 2015. Respondents were to
file their claims within six (6) months after the date of the decedent's death; If
Respondents could prove they had a Deed of Trust and a Note with the ESTATE
OF EMMA M. HORN, Respondents missed their time to file their claim under the
Maryland Code Estates and Trusts Title 8 - Claims of Creditors Subtitle 1 General section 8 - 103. Petitioner was granted a discharge under 11 U.S.C. section
727 under U.S. Bankruptcy Case No. 18-15871 Chapter 7.

21
Foreclosure Civil Case No. CAEF18-01811 was filed under the Bankruptcy Case
and was successfully DISCHARGED; therefore, Petitioner request that the court
grants the ESTATE OF EMMA M. HORN to be released from the Note and Deed
of Trust. Petitioner respectfully request that an Order from the court release the
ESTATE OF EMMA M. HORN from any fraudulent liens and or holds that
Petitioner is unaware of. Respondents must put in writing that the Deed of Trust
and Note has been fully paid/discharged and satisfied, therefore, the ESTATE OF
EMMA M. HORN is released from all debt. A Certificate of Satisfaction and or a
Certificate of Release must be executed, and Respondents must acknowledge it.
Petitioner further request that this court DISMISS Respondents and Respondents
Attorneys with prejudice,’ because of the false Bond that was entered in the court
record and is in dispute, under penalty of perjury, all statements are true, correct,
and complete to the best of my knowledge. I declare under the laws of the United
States of America that the foregoing is true and correct. Executed on this ||
,
Day of February, 2021.
Respectfully submitted,

Toi J. Horn, POA for Petitioner and
Personal Rep for the estate and trustee
c/o 10312 Garson Terrace
Lanham, Maryland [20706]
(240) 602.2140

txfress
r EJ

(Y\o^ \]0.\
4b4 fib4 Slfl US

1

